No.

 

 

IN THE SUPREME COURT OF THE UNITED STATES

ROSA CINGARI,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
For the Eleventh Circuit

CERTIFICATE OF SERVICE

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b), that on this
1st day of October, 2020, copies of the Petition for Writ of Certiorari and the Motion
for Leave to Proceed In Forma Pauperis were sent by United States mail to the
Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001.

All parties required to be served have been served.

f_vhe

Dane K. Chase, Esquire
Florida Bar Number: 0076448
